CERTIFICATE OF SERVICE
NO. 20-297
TransUnion LLC
Petitioner,
v.
Sergio L. Ramirez
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
NATIONAL CONSUMER REPORTING ASSOCIATION, INC IN SUPPORT OF PETITIONER, by mailing three (3)
true and correct copies of the same by Fedex 2-Day, prepaid for delivery to the following addresses.
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for TransUnion LLC

Samuel Issacharoff
Attorney at Law
40 Washington Square South
New York, NY 10012
(212) 998-6580
si13@nyu.edu
Counsel for Sergio Ramirez

Lucas DeDeus

February 8, 2021
SCP Tracking: Lawson-111 North Orange Ave.-Cover Light Green

